 DOE/IG-0554




         AUDIT                THE PLUTONIUM STABILIZATION AND
                                 PACKAGING SYSTEM AT THE
        REPORT                  ROCKY FLATS ENVIRONMENTAL
                                     TECHNOLOGY SITE




                                        MAY 2002


 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                     U. S. DEPARTMENT OF ENERGY
                           Washington, DC 20585

                                May 13, 2002



MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Plutonium Stabilization and
                         Packaging System at the Rocky Flats Environmental Technology Site"

BACKGROUND

From 1952 to 1989, the Rocky Flats Environmental Technology Site (Rocky Flats) produced
nuclear weapons components for the Department of Energy. In January 1992, the primary
mission of the site changed from nuclear weapons production to site cleanup and closure. A
prerequisite to closure is the removal of 9,800 kilograms of plutonium metals and oxides stored at
the site. Rocky Flats estimates that these metals and oxides will be packaged into 1,900
containers which, as currently planned, will be shipped to the Department's Savannah River Site.

In 1998, the Department established a target of May 31, 2002, to stabilize and package the
plutonium at Rocky Flats. In order to prepare the material for shipment, the Department procured
and installed the Plutonium Stabilization and Packaging System (PuSPS). The objective of the
audit was to determine whether Rocky Flats would be able to stabilize and package its plutonium
by the May 2002 target.

RESULTS OF AUDIT

Given current PuSPS operations levels, packaging of less than half of the approximately 1,900
containers needed would be completed by the target date, and the last container of the remaining
plutonium metals and oxides would not be packaged until March 2003. The Rocky Flats Field
Office (RFFO) acknowledged that the target would be missed, citing startup delays and
equipment failures as the primary cause. The audit disclosed that Kaiser-Hill Company, LLC
(Kaiser-Hill), the Rocky Flats remediation contractor, had not developed a long-term production
schedule designed to ensure that the last container would be completed by May 2002, and that
RFFO did not ensure that a contingency plan was prepared for use in the event that there was a
delay or termination in PuSPS production.

Completing the stabilization, packaging, and shipment of the plutonium metals and oxides on a
timely basis is an important component of the closure effort at Rocky Flats. Until such time as
this process is successfully completed, the resources devoted to running the PuSPS and the $3.6
million monthly cost associated with maintaining the protected area cannot be redirected to other
aspects of cleanup. Further, missed milestones increase the risk of delays to the planned 2006
Rocky Flats closure date, which has significant cost implications for the Department's
environmental remediation effort.
                                                -2-


In making our recommendations, we recognize the impact of a recent agreement between the
Department and the State of South Carolina to postpone shipments to the Savannah River Site
until there is satisfactory agreement regarding final disposition of the container materials. This
has prevented Rocky Flats from beginning shipments of plutonium materials already packaged by
the PuSPS. Resolution of these issues will permit shipments to begin.

To address the specific issues noted in the attached report, we recommended that the Manager,
RFFO direct Kaiser-Hill to: (1) develop a long-term, comprehensive, and detailed schedule to
show when production can realistically be completed, and, (2) prepare a contingency plan for
plutonium stabilization and packaging.

Our finding is consistent with a recent Defense Nuclear Facilities Safety Board report that
identified concerns with Rocky Flats' revised schedule for completion. The Defense Board
determined that a significantly high production rate, "will be needed consistently to meet the
current projected completion of plutonium metals and oxide repackaging in PuSPS…"

MANAGEMENT REACTION

Management agreed with the finding and recommendations and stated that it had developed a
long-term production schedule for the PuSPS based on six months of operational experience. The
target is to produce 140 containers per month, with an estimated date of January 2003 for
completion of PuSPS operations. Management also stated that it has implemented extraordinary
levels of management oversight to deal with PuSPS contingencies. It believes that its efforts have
been, and will continue to be, successful in managing contingencies. Management's verbatim
comments are included in the report in Appendix 2.

While we respect management's commitment to increase PuSPS production and to respond to
obstacles in both production and shipping of plutonium metals and oxides, we remain concerned
that the current target of 140 containers per month may not be realistic. Thus, we continue to
support realistic monthly production assumptions and a more aggressive contingency planning
process addressing actions to be taken if the planned schedule cannot be met.
THE PLUTONIUM STABILIZATION AND PACKAGING SYSTEM AT
THE ROCKY FLATS ENVIRONMENTAL TECHNOLOGY SITE

TABLE OF
CONTENTS


                Overview

                Introduction and Objective ............................................... 1
                Conclusions and Observations ........................................ 1


                Plutonium Stabilization And Packaging
                At Rocky Flats


                Details of Finding ............................................................. 3
                Recommendations and Comments ................................. 5


                Appendices


                Scope and Methodology .................................................. 7
                Management Comments ................................................. 8
                Related General Accounting Office Reports ................. 10
Overview
INTRODUCTION      The Department of Energy (Department) and its site contractor, Kaiser-
AND OBJECTIVE     Hill Company, LLC (Kaiser-Hill), contracted in February 2000 to close
                  the Rocky Flats Environmental Technology Site (Rocky Flats) by
                  December 15, 2006. A prerequisite to this closure is the removal of
                  9,800 kilograms of plutonium metals and oxides in storage at Rocky
                  Flats. The plutonium, currently stored inside a high-security protected
                  area, must be stabilized and packaged prior to being shipped offsite.

                  In 1998, the Department established a target of stabilizing and
                  packaging the plutonium by May 31, 2002. The current contract
                  milestone for the final shipment to the Savannah River Site is
                  October 14, 2002. In order to prepare and package the material for
                  shipment, the Department procured and installed a Plutonium
                  Stabilization and Packaging System (PuSPS) at Rocky Flats.

                  The objective of the audit was to determine whether Rocky Flats would
                  be able to stabilize and package its plutonium by the May 31, 2002,
                  target.


CONCLUSIONS AND   Given current PuSPS operations, Rocky Flats will not be able to
OBSERVATIONS      stabilize and package all of its plutonium by the May 2002 target. We
                  estimated that only 869 of the approximately 1,900 containers will be
                  packaged by May 31, 2002. At this rate, the final container will not be
                  produced until March 2003.

                  Rocky Flats Field Office (RFFO) stated that production delays occurred
                  due to delayed startup of the PuSPS, lower than anticipated production
                  rates, and higher than expected equipment failures. In addition, we
                  identified several control deficiencies. Specifically, Kaiser-Hill did not
                  develop a detailed, long-term production schedule to ensure on-time
                  completion and the RFFO did not ensure that a contingency plan was
                  developed in the event that production stopped.

                  Until production is completed, the resources devoted to running the
                  PuSPS cannot be redirected to other aspects of cleanup. Likewise, until
                  shipments are completed, the $3.6 million monthly cost associated with
                  maintaining the protected area will continue. Missed milestones also
                  increase the risk of delaying the planned 2006 closure date, which could
                  increase final site closure costs.




Page 1                                                     Introduction and Objective/
                                                        Conclusions and Observations
         Similar issues were discussed in reports issued by the General
         Accounting Office (GAO) in 1998, and again in 1999 and 2001. GAO
         questioned whether the Department would meet the May 2002 target
         date to have plutonium stabilized and packaged. GAO also concluded
         that the Department would have to overcome major challenges,
         including getting the PuSPS to perform and sustain a rate of production
         needed for timely completion, if Rocky Flats was to close on time and
         within budget.

         A recent agreement between the Department and the State of South
         Carolina, to postpone shipments until there is satisfactory agreement
         regarding final disposition of the container materials, may cause an
         additional hindrance. Thus far, this has prevented Rocky Flats from
         beginning shipments of plutonium materials already packaged by the
         PuSPS. The Department and the State of South Carolina are still
         working to reach a satisfactory agreement regarding final disposition
         that will permit shipments to begin.

         The audit identified issues that management should consider when
         preparing its year-end assurance memorandum on internal controls.




                                      ___(Signed)____________
                                      Office of Inspector General




Page 2                                        Conclusions and Observations
Plutonium Stabilization And Packaging At Rocky Flats
Rocky Flats Unable To   In a January 2002 draft report to the RFFO, we indicated that Rocky
Meet Target             Flats would not be able to meet its May 2002 target date for completing
                        the stabilization and packaging of the plutonium metals and oxides. We
                        estimated that, given the then-current PuSPS operations, only 1,136 of
                        the needed 1,900 containers would be produced by May 31, 2002, and
                        the final container would not be produced until November 2002. Since
                        the issuance of the draft, the PuSPS has produced even fewer containers
                        than originally projected. As a result, we revised our projection and
                        now estimate that, as of May 31, 2002, only 869 containers would be
                        produced. At this rate, the final container will not be produced until
                        March 2003.

                        Kaiser-Hill had planned to meet the May 2002 target by gradually
                        reaching and then maintaining a production level of eight containers per
                        day. This level was to be achieved by running two eight-hour shifts a
                        day and completing four containers per shift. However, recent reports
                        issued by Kaiser-Hill and GAO identified problems with attaining this
                        level. In a February 2001 Risk Mitigation Strategy prepared by Kaiser-
                        Hill project managers, and again in a March 2001 risk management
                        plan, Kaiser-Hill indicated that the PuSPS equipment may not achieve
                        the production rate needed to meet the goal. In addition, GAO stated in
                        its February 2001 report, Progress Made at Rocky Flats, but Closure by
                        2006 Is Unlikely, and Costs May Increase, that Rocky Flats had
                        significant technical problems to overcome in order to successfully
                        operate the stabilizing and packaging system. GAO also expressed
                        concern that Kaiser Hill had no empirical evidence to show that the
                        eight container-per-day production level is within the system's
                        capability.

                        During our audit, Kaiser-Hill had been able to add a second eight-hour
                        shift as planned, but it had not been able to produce the specified eight
                        containers per day. We concluded that, even if the PuSPS produced
                        eight containers per day, seven days per week, there was not sufficient
                        time remaining for Kaiser-Hill to meet the May 2002 target. In January
                        2002, Kaiser-Hill started operating the PuSPS in two 10-hour shifts in
                        order to increase its daily output. While there were some immediate
                        increases in daily output, the PuSPS has been unable to produce the
                        targeted 140 containers per month. The average monthly number of
                        containers produced during the 3-month period of January through
                        March 2002 was only 112. In addition, production declined steadily
                        between January and March 2002.




Page 3                                                                      Details of Finding
Standards And         The Secretary of Energy's February 1995 Implementation Plan for the
Expectations          Remediation of Nuclear Materials in the Defense Nuclear Facilities
                      Complex (Implementation Plan) committed the Department to stabilize
                      and package the plutonium metals and oxides in compliance with the
                      Department's Standard 3013, Stabilization, Packaging, and Storage of
                      Plutonium-Bearing Materials, at Rocky Flats by May 2002. The
                      commitment, which was developed as a result of a 1994 Defense
                      Nuclear Facilities Safety Board (Defense Board) report on poor storage
                      practices for special nuclear materials, remained unchanged in the
                      January 2001 update to the Implementation Plan.

                      Expectations for sound management are laid out in the operating
                      contract and regulations. The contract requires a PuSPS production
                      schedule and contingency plan. Also, Department Order 430.1, Life
                      Cycle Asset Management, requires assets to be managed according to
                      industry standards. Industry standards for high-risk prototype projects
                      such as the PuSPS include contingency planning. In addition, Kaiser-
                      Hill's Programmatic Risk Management Plan and Project Management
                      Plan require a contingency plan to mitigate risks for six major closure
                      projects, one of which included the PuSPS.

Need For Production   RFFO stated that production delays occurred due to delayed startup of
And Contingency       the PuSPS, lower than anticipated production rates, and higher than
Planning              expected equipment failures. In addition, we also identified several
                      control deficiencies. Specifically, Kaiser-Hill did not develop a
                      detailed, long-term production schedule designed to ensure that the last
                      container would be produced by May 2002. Also, RFFO did not ensure
                      that a contingency plan was prepared to use in the event that production
                      stopped. These actions were essential since the planned PuSPS startup
                      was delayed nearly 3 years.

                      Prior to January 2002, Kaiser-Hill had only planned operations in the
                      short-term — one or two-week increments — with no long-term
                      outlook toward achieving the May 2002 target. Despite the fact that the
                      stabilization and packaging target date was fast approaching, Kaiser-
                      Hill operated the PuSPS only nine days per two-week period and still
                      had not reached a production level of eight containers per day. While it
                      appeared clear to us by July 2001 that the target would not be met, no
                      decisions were made by management to change the operating schedule
                      until December 2001 and no changes were actually made until January
                      2002. Our conclusion was based on analysis of the PuSPS production
                      and the existing PuSPS operating schedule.




Page 4                                                                    Details of Finding
                  Further, RFFO did not ensure that Kaiser-Hill prepared a contingency
                  plan for plutonium stabilization and packaging in the event that the
                  PuSPS experiences a catastrophic failure. Kaiser-Hill's February 2001
                  Risk Mitigation Strategy was a first step toward a contingency plan.
                  The document identified various production scenarios and contained
                  recommendations related to each. However, RFFO did not take the
                  opportunity to use Kaiser-Hill's document as a catalyst for developing a
                  contingency plan for the PuSPS. According to the RFFO Project
                  Manager, a contingency plan was not needed, as RFFO already knew
                  what to do if alternative actions are required. However, any significant
                  change from the current plan to package the metals and oxides in
                  containers that meet the Department's Standard 3013 at Rocky Flats
                  would be time-consuming and require coordination with other
                  Department offices.

Closure Costs     Without the completion of the stabilization and packaging process,
                  resources devoted to running the PuSPS cannot be redirected to other
                  aspects of cleanup. A delay would hinder Kaiser-Hill's plan to move
                  significant numbers of trained personnel to other key closure activities,
                  such as building remediation. In addition, until the estimated 1,900
                  containers are shipped to the Savannah River Site, the protected area
                  cannot be closed and the $3.6 million monthly cost associated with
                  maintaining it will continue. Each missed milestone at Rocky Flats
                  increases the risk of delays to the planned site closure date of December
                  2006, which could in turn increase final site closure costs.


RECOMMENDATIONS   We recommend that the Manager, Rocky Flats Field Office direct
                  Kaiser-Hill to:

                       1. Develop a long-term, comprehensive, and detailed schedule to
                          show when production can realistically be completed.

                       2. Prepare a contingency plan for plutonium stabilization and
                          packaging in the event that the PuSPS experiences a
                          catastrophic failure.




Page 5                                             Recommendations and Comments
MANAGEMENT   RFFO management agreed with the finding and recommendations.
REACTION     Management stated that it developed a long-term production schedule
             for the PuSPS based on 6 months of operational experience. The
             schedule is to produce 140 containers per month that meet the 3013
             Standard, with an estimated date of January 2003 for completion of
             PuSPS operations. Management also stated that it has implemented
             extraordinary levels of management oversight to deal with PuSPS
             contingencies. RFFO believes that its efforts have been, and will
             continue to be, successful in managing PuSPS operations.
             Management's verbatim comments are included in the report in
             Appendix 2.


AUDITOR      Management's comments and actions to date are partially responsive to
COMMENTS     our recommendations. Clearly, management is striving to increase
             PuSPS production and to respond to obstacles to both production and
             shipping of plutonium metals and oxides. These are necessary to
             package and remove the materials from Rocky Flats. However,
             management's current monthly production target may not be realistic,
             and responding to obstacles as they arise constitutes reaction, not
             advance planning for contingencies.

             While Kaiser-Hill has made significant progress in improving the
             PuSPS production rate, the current production target of 140 containers
             per month is overly optimistic. Management stated in its comments
             that the PuSPS has produced 140 containers in one month.
             Nevertheless, this is not supported by the past three months of
             production statistics. Specifically, the PuSPS produced 127 containers
             in January 2002, 113 in February 2002, and 97 in March 2002. Taking
             the total produced through the end of March 2002, and adding the most
             recent 3-month average of 112 containers per month, we estimate that
             the 1,900 containers would not be complete until March 2003. These
             results, in our view, are sufficient to question whether the PuSPS can
             produce 140 containers monthly, and whether the January 2003
             completion date now cited by RFFO is realistic. In addition, the PuSPS
             is now operating 20 hours per workday. More realistic monthly
             production assumptions are needed to accurately forecast completion of
             production.

             Further, while the contingency planning action cited by RFFO in its
             comments — implementation of an extraordinary level of management
             oversight — is commendable, intense management oversight cannot
             take the place of a workable contingency plan in preparing Rocky Flats
             for the possibility of PuSPS failure.


Page 6                                       Recommendations and Comments
Appendix 1
SCOPE         The audit was performed at Rocky Flats and the Oakland Operations
              Office between May 2001 and March 2002. The audit covered the
              period from the inception of the contract for the PuSPS through March
              2002.


METHODOLOGY   To accomplish the audit objective we:

                  • Reviewed the contract for the PuSPS;
                  • Determined the production levels of the PuSPS and compared
                    them to the performance specifications required by the contract;
                  • Interviewed RFFO, Kaiser-Hill, and Department Headquarters
                    personnel;
                  • Interviewed personnel from the Savannah River Site, the
                    Hanford Site, Argonne National Laboratory-West, and Los
                    Alamos National Laboratory;
                  • Interviewed the Chairman of the Defense Board;
                  • Reviewed the Rocky Flats Closure Project Baseline;
                  • Reviewed Department Orders regarding project management
                    and approval; and,
                  • Reviewed prior GAO reports.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. In addition, we
              reviewed RFFO's performance measure for site closure by December
              2006 in accordance with the Government Performance and Results Act
              of 1993. Because our review was limited, it would not necessarily have
              disclosed all internal control deficiencies that may have existed at the
              time of our audit. We did not conduct a reliability assessment of
              computer-processed data because we did not rely upon such data during
              the audit. The exit conference was held with RFFO management on
              April 11, 2002.




Page 7                                                    Scope and Methodology
Appendix 2




Page 8       Management Comments
Page 9   Management Comments
Appendix 3


             RELATED GENERAL ACCOUNTING OFFICE REPORTS



   •   NUCLEAR CLEANUP: Progress made at Rocky Flats, but Closure by 2006 Is Unlikely, and
       Costs May Increase, (GAO-01-284, February 2001). To close Rocky Flats on time and
       within budget, Kaiser-Hill and the Department must overcome major challenges, including
       getting the automated plutonium-packaging system to reliably perform at the rate needed for
       timely completion. Once the system begins operations, it is unclear whether it can sustain
       the needed production rate to allow the site's closure by the target date. Kaiser-Hill officials
       believed the PuSPS could produce one container every 2 hours of operation or eight
       containers per day during two 8-hour shifts, but had no empirical evidence to support this
       view.

   •   DEPARTMENT OF ENERGY: Accelerated Closure of Rocky Flats: Status and Obstacles,
       (GAO/RCED-99-100, April 1999). The site is now planning to accelerate the stabilization,
       packaging, and shipment of its plutonium metals and oxides by 2 years. The site expects to
       complete these tasks by May 2002. However, as the GAO reported in April 1998, the site
       has encountered problems--including difficulties in procuring an automated plutonium
       stabilization and packaging system--that have delayed its progress and increased costs.

   •   DEPARTMENT OF ENERGY: Problems and Progress in Managing Plutonium,
       (GAO/RCED-98-68, April 1998). Although the Department has made some progress in
       stabilizing its plutonium, the Department is unlikely to meet its May 2002 target date to
       have its plutonium that is not in pits stabilized, packaged, and stored. The Department's
       sites with most of this plutonium have experienced many delays and expect more in meeting
       their implementation plan milestones.




Page 10                                                                   Related General Accounting
                                                                          Office Reports
                                                                     Report No.: DOE/IG-0554


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
